U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


      GUAM U.S. PASSPORT OFFICE,
        GOVERNMENT OF GUAM

             REPORT NO. 00-I-332
                 APRIL 2000
U.S. Department of the Interior                                Office of Inspector General

                               EXECUTIVE SUMMARY

                               Guam U.S. Passport Office,
                                 Government of Guam
                                  Report No. 00-I-332
                                      April 2000

BACKGROUND

The Office of the Governor of Guam was authorized by the U.S. Department of State to
assist in processing passports for U.S. citizens on Guam. Accordingly, the Governor
established the Guam U.S. Passport Offke to accept application and renewal forms for U.S.
passports; review them to ensure that they are completed correctly and have the required
supporting documents; and forward them to Honolulu, Hawaii, for final processing by the
Honolulu Passport Agency, U.S. Department of State. During the 21-month period reviewed
(October 1997 through June 1999), the Passport Office processed 21,895 passport
applications and collected related fees totaling $1,328,334. During the same period, the
Passport Office had seven employees, five of whom processed passport applications.

OBJECTIVE

The objective of the survey was to determine whether the Passport Office’s internal controls
over cash coliected for fees were adequate. This survey was performed based on a request
from a Senator of the 24th Guam Legislature.

RESULTS IN BRIEF

We concluded that the Passport Office’s internal controls provided reasonable assurance that
transactions were properly recorded, cash and passports were adequately safeguarded, and
fees were properly assessed and collected. However, the Passport Offke did not assess and
collect execution fees for no-fee passports, as required by the United States Code and U.S.
Department of State regulations. An execution fee of $15 is to be collected upon execution
of each passport license regardless of whether a passport fee is applicable. Based on our
review, we determined that the Passport Office should have assessed and collected execution
fees totaling $4,350 for 290 no-fee passport applications processed during fiscal years 1998
and 1999 (through June 30, 1999).

RECOMMENDATION

We recommended that the Chief Passport Officer of the Guam Passport Office develop and
implement written procedures that are in conformance with the Federal requirements
regarding the assessment and collection of execution fees.
AUDITEE COMMENTS AND OIG EVALUATION

In its response to the draft report, the Passport Of&e concurred with the report’s
recommendation and stated that a tracking system had been established for execution fees.
We considered the recommendation resolved and implemented.         Therefore, no further
response to the report is required.




                                            2
I
                                                                             N-IN-GUA-004-99-R


                   United States Department                         of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                         Washington,   D.C. 20240




                                    SURVEY REPORT
    Ms. Andrea Finona
    Chief Passport Officer
    Guam US. Passport Office
    10 1-B Street
    Tiyan, Guam 96913

    Subject: Survey Report on the Guam U.S. Passport Office, Government of Guam
             (No. 00-r-332)

    Dear Ms. Finona:

    This report presents the results of our review of the operations of the Guam U.S. Passport
    Office. The objective of our survey was to determine whether the internal controls of the
    Guam U.S. Passport Office over the cash collected for fees were adequate. This survey \vas
    performed based on a request from a Senator of the 24th Guam Legislature.

    BACKGROUND

    The Governor’s Office has been authorized by the U.S. Department of State to assist in
    processing passports for U.S. citizens on Guam. The Governor’s Office established the
    Guam U.S. Passport Office to accept application and renewal forms for U.S. passports;
    review them to ensure that they are completed correctly and have the required supporting
    documents; and to forward them to Honolulu, Hawaii, for final processing by the Honolulu
    Passport Agency, U.S. Department of State. This review process reduces the overall
    processing time by identifying procedural problems before the forms are sent off-island. The
    Guam U.S. Passport Office also assesses and collects fees related to the processing of the
    passport applications.

    During the 2 1-month period reviewed (October1997 through June 1999), the Passport Office
    processed 2 1,895 passport applications and collected related fees totaling $1,328,334. The
    passport fees collected are deposited into Guam’s General Fund. The U.S. Code Annotated
    (U.S.C.A.) and Section 30 of the Revised Organic Act of Guam authorize the Government
    of Guam to retain the passport fees. Specifically, 48 U.S.C.A. 5 142 1h states that “passport
    [and other] fees collected in Guam shall be covered into the treasury of Guam and held in
    account for the government of Guam, and should be expended for the benefit of the
    government of Guam in accordance with the annual budgets; except that nothing in this
    chapter shall be construed to apply to any tax imposed by chapter 2 or 2 1 of Title 26 of the
    Internal Revenue Code . . ..‘I


                                                   3
Passport Office operations are funded by Guam’s General Fund. The Passport Office
received appropriations of $248,966 for fiscal year 1998 and $250,966 for fiscal year 1999
and had expenditures of $240,088 for fiscal year 1998 and $170,026 for fiscal year 1999
(though June 30, 1999). During the 2 1 months reviewed, the Passport Office had seven
employees, five of whom processed passport applications.

SCOPE OF SURVEY

The scope of our survey included a review of the internal controls at the Passport Office
relating to the processing of passport applications and the assessment and collection of
passport fees during fiscal years 1998 and 1999 (through June 30,1999) and the safeguarding
of cash and passports. Our review was performed at Guam’s U.S. Passport Office in Tiyan,
Guam. To accomplish the survey objective, we reviewed selected transmittal forms, deposit
slips, and supporting documentation; interviewed employees who processed passport
applications; and discussed our finding with management to determine whether procedures
were adequate. We also interviewed the Treasurer of Guam, Department of Administration,
regarding collection requirements.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

Based on our review, we identified an internal control weakness related to assessing and
collecting execution fees. This internal control weakness is discussed in the Results of
Survey section of this report. Our recommendation, if implemented, should improve the
internal controls in this area.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office of
Inspector General has issued any audit reports on the internal controls over passport fees
assessed and collected by the Guam U.S. Passport Office.

                            RESULTS OF SURVEY

We determined that the Guam U.S. Passport Office’s internal controls provided reasonable
assurance that transactions were properly recorded, cash and passports were adequately
safeguarded, and fees were properly assessed and collected. Although the Passport Office
had adequate controls over its operations, the Office did not assess and collect all required
fees. Specifically, the Passport Office did not assess and collect execution fees for no-fee
passports. The requirements for assessing and collecting execution fees are contained in the
U.S. Code Annotated, the Code of Federal Regulations (CFR), and the U.S. Department of
State’s “Passport Agent’s Reference Guide, Passport Services.” The deficiency occurred
because management had not established written procedures for processing passport


                                              4
applications and collecting the fees.  As a result, the Passport Office did not collect
execution fees of $4,350 (see Appendix 1).

Execution     Fees

According to 22 U.S.C.A. $ 214, “[Tlhere shall be collected . . . a fee, prescribed by the
Secretary of State by regulation, for each passport issued and a fee, prescribed by the
Secretary of State by regulation, for executing each application for a passport.” Additionally,
according to 22 CFR Q 51, “Fees, including execution fees, shall be collected for the
following passport services in the amounts prescribed in the Schedule of Fees for Consular
Services.” Further, the “Passport Agent’s Reference Guide” states that “the Passport Agent
collects the required fees when the application is executed. The passport fee for a DSP- 11
Passport Application is $25 for passports issued to persons under 16 years of age and $45 for
passports issued to persons 16 years old or older. The execution fee is $15 for both minors
and adults.” The Guide also states, “State, county or municipal officials collect the execution
fee for executing both fee and no-fee passport applications.”

Based on these requirements, we reviewed the fee collection process for passport
applications included on 532 transmittal forms processed in January, February, and March
 1999 and in July, August, and September 1998. We identified 5,738 passport applications,
with fees totaling $34 1,120, and found that the Passport Office did not assess and collect
execution fees for no-fee passport applications. The transmittal forms were used to list the
names of applicants and various fees (such as passport fee, execution fee, expedite fee, and
special postal service fee) paid by the applicants. We compared information concerning the
number of passport applications processed and the amount of fees collected and deposited
as shown on the transmittal forms with the information shown on the Passport Office’s
summary worksheets and found no discrepancies. Therefore, using the summary worksheets,
we determined that 290 no-fee passport applications had been processed: 165 during fiscal
year 1998 and 125 during fiscal year 1999 (through June 30, 1999). Based on the stated
execution fee of $15, the Passport Offtce should have assessed and collected execution fees
totaling $4,350 for the 290 no-fee applications.

The Deputy Chief responsible for overseeing the collection of passport fees told us that she
was not aware that execution fees were required for no-fee passports. The Deputy Chief
contacted the Director, Honolulu Passport Office, by telephone concerning the execution fee
for no-fee passports. The Customer Service Manager ofthe Honolulu Passport Office wrote
a memorandum, dated September 23, 1999, instructing the Guam U.S. Passport Office to
“accept and execute applications for no-fee passports if you are not already accepting them.”
The memorandum further stated, “Upon execution of the application for a no-fee
passport . . . Your office will be entitled to collect and retain the $15 execution fee.”




                                              5
Recommendation

We recommend that the Chief Passport Officer of the Guam U.S.Passport Office develop
and implement       written  procedures   that are in conformance         with Federal
requirements/guidance regarding the assessment and collection of execution fees.

Guam U.S. Passport           Office Response        and Office of Inspector          General
Reply

In its February 8,2000, response (Appendix 2) to the draft report, the Passport Office stated
that it had “been assessing the execution fee for no-fee passports since September 27,1999.”
In a March 8,2000, supplemental response (Appendix 3), the Passport Office stated that it
had established “a tracking system for execution fees.” Based on the responses, we consider
the recommendation resolved and implemented.

Since the report’s recommendation is considered resolved and implemented,            no further
response to this report is required (see Appendix 4).

Section S(a)(3) ofthe Inspector General Act (5 U.S.C. app 3) requires the Office oflnspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                                Earl E. Devaney
                                                Inspector General

cc:   Governor of Guam




                                               6
                                            APPENDIX 1



     CLASSIFICATION OF MONETARY AMOUNTS


                                  Unrealized
      Finding Area                Revenues

Execution fees                     $4,350




                      7
                                                                                                            APPENDIX
                                                                                                                 -   2



                                U.S. PASSPORT OFFICE GUAM
                                ESTADOS UNIDOS UFISINAN PASAPOITE GUAHAN

 Carl T.C. Gutierrez                                                                                            Vicente B. Calvo
                                                                                                            CHIEF PASSM)RT OFFICER
   GOVERNOR      OFGUAM

                                                                                                            Andrea M. Finona
Madeleine     Z. Bordallo
                                                                                                            ASmANTCHIEF OFFICIER
  LT. GOVERNOR    OF GUAM




        February 8,200O

        Mr. Robert J. Williams
        Assistant Inspector General for Audits
        Office of the Inspector General, Pacific Office
        U.S. Department of the Interior
        415 Chalan San Antonio, Suite 306
        Tamuning, Guam 96911

        Dear Mr. Williams,

        To begin, let me express my appreciation for the efforts your office and staff expended
        performing the review of the operations of the Guam U.S. Passport Office. As the Acting Chief
        Passport Officer for Guam, I welcome any review from which may be drawn constructive ideas
        and practices to render our service more effective and efficient for all.

        Relative to the review findings that the Guam Passport Office had not implemented execution
        fees for Fiscal Year 1998 and 1999, the Office of the Governor was informed of the requirement
        for the assessment of an execution fee for no-fee passports as established under Federal statutes
        (22 U.S.C.A 551 & $214). As a result of the correspondence from the Honolulu Passport
        Agency, the Guam Passport Office has been assessing the execution fee for no-fee passports                            ‘L
        since September 27, 1999. The operational review covered the period October 1997 to June
        1999, thus, this assessment was not yet in place when Agency records were reviewed. Prior to                            _
        September, 1999, and since no-fee passports are those authorized for federal officials,
        applications were accepted and processed. without charge

        If there are any further questions regarding this matter, or any other points raised in the
        operational review, please feel free to call me at 477-8974.




        Acting Chief Passport Officer

        cc:          The Governor
                     The Governor’s Chief of Staff




 p.0. Box 2950 Agana, Guam 96910 / 101    B Street Tiyan Guam 96913 / Tel: (671) 177-S974 Fax: (671) 477-1125
                                                  l

                                                               0
                                                   U.S. PASSPORT OFFICE GUAM
                                                   ESTADOS UNIDOS UFISINAN PASAPOllE GUAHAN

      Carl    T.C. Gutierrez
                                                                                                                                                   Vicente 8. Calve
                                                                                                                                               Cl1LF.F PA5TODRTCFFKER
        COVFILWX      OF ‘JAM

                                                                                                                                                   Andrea      M. Finona
    Madeleine        2. Bordallo
                                                                                                                                               ASSSIANCHIEF              OFFICER
        v GCVEWOR     OF GdAM
_     ____        .______      _...._. ---         .-..._.            .-____.-                                                                 .-~                 -__
_____        --.-           .___,_           --_             ---.--                                                                                  .___ _-   -             ---_:-




                      March 8, 2000

                      Mr.  Robert J. Williams
                      Assistant Inspector General for Audits
                      Office of the Inspector General, Pacific Office
                      U.S. Department of the Interior
                      4 15 Chalan San Antonio, Suite 306
                      Tamuning, Guam 96911

                      Dear 1Mr. Williams,

                       In response to your letter regarding the assessment of the execution fee for
                       no-fee passports as established under federal statutes, the Guam Passport
                       Office has implemented this process. As a result of this, our office has
                       garnered additional responsibilities, which includes the establishment of a
                       tracking system for execution fees.

                       To date, this management tool has worked well with our system and my staff
                       has adapted well to the process. We continue to work harmoniously with the
                       wonderful staff in the Honolulu Pzssport Agency, whose direction and
                       experience enhances our local Passport Office.

                       Please feel free to contact me for further discussions                                        regarding this matter. I
                       may be contacted at 477-8974.




                       Chief Passport Officer


                       cc:         Governor Carl T. C. Gutierrez



       p.0. Box 2950 A&am, Guam 96910 / 101 BStreet                              l   Ryan Guam 96913 / Tel: (671) 477-8974   Fax: (671) 477-1125
                                                         APPENDIX 4



       STATUS OF SURVEY REPORT RECOMMENDATION



Findings/Recommendation
         Reference          status            Action Reauired

            1             Implemented   No further action is required.




                               10
                   ILLEGAL OR WASTEFUL ACTIVITIES
                        SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                     lnternet Complaint        Form Address


                    http://www.oig.doi.gov/hotline_form.html



                   Within the Continental         United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420




                   Outside the Continental        United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
&%rlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
                                        L
xl                                     ZJ-




     U.S. Department of the Interior
     Office of Inspector General
     1849 C Street, NW
     Mail Stop 5341- MIB
     Washington, D.C. 20240-0001

     Toll Free Number
           l-800-424-508   1


     FTS/Conmercial Numbers
          (202) 208-5300
          TDD (202) 208-2420
